              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Disposal of Remote-Handled
Transuranic Waste at the Waste
Isolation Pilot Plant




DOE/IG-0613                                 July 2003
                             Department of Energy
                                   Washington, DC 20585

                                   July 18, 2003



MEMORANDUM FOR THE SECRETARY

                          /+.-
                                       /'-
                               I




FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Disposal of Remote-
                          Handled Transuranic Waste at the Waste Isolation Pilot Plant"


BACKGROUND

The Waste Isolation Pilot Plant (WIPP), located near Carlsbad, New Mexico, is the
Department of Energy's underground repository for defense-generated Transuranic
(TRU) waste. TRU waste consists of items such as clothing, gloves, and tools
contaminated with small amounts of radioactive elements. Most TRU wastes can be
handled by workers using minimal specialized protective gear and is referred to as
"contact-handled" TRU. However, TRU wastes with a surface radiation dose rate greater
than 200 millirem per hour must be handled using remote devices and is referred to as
"remote-handled. 'I




The Department began disposing of contact-handled TRU waste at WIPP in 1999;
however, it must modify the WIPP operating permit prior to disposing of remote-handled
waste. The Department applied to the State of New Mexico and the Environmental
Protection Agency for a permit modification in June 2002, and it anticipates approval in
time for WlPP to begin receiving remote-handled TRU in 2005. The Department plans
to dispose of at least 113,300 cubic meters of contact-handled TRU waste and 2,800
cubic meters of remote-handled TRU waste at WIPP over the life of the program. The
objective of this audit was to determine whether the Department had established an
efficient system for disposing of remote-handled TRU waste at WIPP.

RESULTS OF AUDIT

We concluded that opportunities exist for the Department to improve the efficiency of its
remote-handled TRU waste disposal program over the next two decades. Specifically,
our audit disclosed that:

       If current waste emplacement practices continue, by 2020, the repository, as now
       configured, will not be able to accommodate 980 planned shipments of remote-
       handled TRU waste. The Department has recognized the potential space problem
       and identified some alternatives, but has not yet formally planned for the
       resolution of this issue.

                               @      Printed with soy ink on recycled paper
                                            2

   0   There should be improved integration in and consistency of local treatment plans
       at several sites and the Department's overall remote-handled TRU management
       plan. For example, according to the Department's accelerated cleanup schedule,
       WIPP will receive about 180 shipments of the Hanford Site's remote-handled
       TRU waste by 2012. However, Hanford only expects to send about 20 shipments
       by that date. This is an important difference which could, depending upon the
       path chosen for resolution, further impact the availability of space at WIPP for
       remote-handled TRU.

       There are actions that the Department can take to improve the efficiency of
       transporting TRU waste to WIPP. For example, we estimated the Department
       could reduce the number of planned shipments to WIPP by about 33 percent by
       optimizing the use of 10-drum, versus 3-drum shipping containers. Such action
       would have significant cost savings implications.

We also noted that existing strategic performance goals and measures for use in
managing the program could be enhanced. By maintaining a careful focus on full
integration and coordination of the treatment, transportation, and disposal of remote-
handled TRU waste across the complex, the Department can increase the likelihood that
its accelerated cleanup goals will be achieved. The Office of Environmental
Management (Environmental Management), which has ultimate responsibility for this
program, has a major effort underway to integrate and coordinate the remote-handled
TRU waste program. Our report includes several recommendations intended to assist in
this process.

MANAGEMENT REACTION

Environmental Management disagreed with the finding and recommendations in the
report, raising concerns that the report may draw faulty conclusions concerning the
Department's management of TRU waste. Where appropriate, we have included
management's specific concerns, along with our responses, in the text. Also,
management's comments are included in their entirety as Appendix 3.

Environmental Management took the position, in response to the report, that recent
improvements in established management systems are sufficient to address issues as they
arise. In this regard, management indicated that it had established:

   0   Baseline configuration control for TRU waste shipments, including Assistant
       Secretary approval for baselines and subsequent changes;
   0   A formal process to approve all radioactive waste shipments, including TRU, on a
       bi-weekly basis;
   0   Performance-based incentives in contracts at shipping sites and at WIPP;
   0   Regular briefings for the Under Secretary on all aspects of WIPP, including
       shipments, operations, regulatory compliance activities, and permit modifications;
       and,
       New corporate performance metrics.
                                             3



While the Office of Inspector General agrees that the improvements recently
implemented by management are positive steps, our analysis indicated that additional
action is needed to hlly integrate and coordinate the treatment, storage, transportation,
and disposal of remote-handled TRU waste.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Carlsbad Field Office
                                                                                                                 -




DISPOSAL OF REMOTE-HANDLED TRANSURANIC WASTE AT
THE WASTE ISOLATION PILOT PLANT

TABLE OF
CONTENTS



               Disposal Operations

               Details of Finding .......................................................................    1

               Recommendations and Comments ............................................                    8


               Appendices

               1. Prior Audit Reports..............................................................         10

               2. Objective, Scope, and Methodology ...................................                     11

               3. Management Comments .....................................................                 13

               4. Difference in Shipments ......................................................            16

               5. Cost Savings .......................................................................      17
                                                                                                       ”-




DISPOSAL OPERATIONS

Efficiencies     The Department of Energy (Department) faces a number of challenges
                 that could impact the efficiency of its disposition of remote-handled
                 transuranic (TRU) waste. The Waste Isolation Pilot Plant (WIPP) may
                 lose access to disposal space needed for remote-handled TRU waste,
                 and it could lose the ability to dispose of at least 980 shipments of
                 remote-handled TRU waste unless the facility is reconfigured. Also,
                 consistency between local treatment plans at several sites and the
                 Department’s overall program management plan could be improved.
                 Further, opportunities may exist for the Department to develop a more
                 cost-effective plan for optimizing the use of shipping containers for
                 transporting remote-handled TRU waste to WPP.

                                                  Disposal Capacity

                The WIPP facility contains disposal rooms excavated 2,150 feet
                underground in an ancient, stable, salt formation. The facility was
                designed to allow remote-handled TRU waste to be placed in holes
                bored into the walls of the disposal rooms before the rooms are filled
                with contact-handled transuranic waste. As a room is filled with
                contact-handled drums and boxes, access to the remote-handled TRU
                waste boreholes is blocked. Based on the current configuration, the
                Department could dispose of approximately 5,848 shipments of remote-
                handled TRU waste at WPP, provided remote-handled TRU waste
                containers are disposed of before contact-handled waste containers are
                placed in the rooms.

                However, the space available for disposal of remote-handled TRU
                waste is rapidly diminishing, in part because shipments of contact-
                hahdled waste began in 1999 and shipments of remote-handled TRU
                waste will not begin until at least 2005, after the permit modification is
                approved. In its 2002 National TRU Waste Management Plan, the
                Department stated that, based on current disposal plans, WIPP would
                lose approximately 2,400 disposal positions. We estimate that the loss
                of disposal positions will be significantly greater than anticipated in the
                management plan. Based on our analysis of the contact-handled TRU
                waste disposal and the difference in remote-handled TRU waste and
                contact-handled shipping rates in the future, WIPP will lose up to 3,574
                remote-handled TRU waste disposal positions over the life-cycle of
                WIPP, resulting in a lack of disposal positions for approximately 980
                shipments. In addition, the Department has about 1,700 cubic meters of
                orphan remote-handled TRU waste’ that may eventually require
                disposal at WIPP.

                1
                    Orphan waste is TRU waste for which a disposition path has not yet been defined.

Page 1                                                                          Details of Finding
         In responding to a draft of this report, the Office of Environmental
         Management stated that options are under consideration to dispose of all
         remote-handled TRU waste. Management stated that it closely monitors
         WIPP disposal operations and, through the existing planning and
         regulatory process, can accommodate changing waste forecasts and
         schedules as needed. Options available include use of underground
         disposal panels 9 and 10 or double canister emplacement in boreholes.
         Also, management stated that there is sufficient time to implement any
         option under current management practices.

         We recognize that the Department could dispose of all remote-handled
         TRU waste using the alternatives listed by management. Our concern is
         that recent planning documents, including the permit modification
         submitted to New Mexico in June 2002, do not contemplate any of these
         alternatives. Given the time requirements typically associated with the
         regulatory process, and the fact that technical issues would need to be
         resolved, it would be prudent, in our judgment, for the Department to
         begin a formal planning process that accounts for the disposal of all
         remote-handled TRU waste shipments.

                                   Site Treatment Plans

         Although the Department has established an overall program
         management plan for remote-handled TRU waste, consistency between
         that plan and local treatment activities at several sites could be
         improved. For example:

                According to the Department's accelerated cleanup schedule,
                WlPP will begin to dispose of the Hanford Site's remote-handled
                TRU waste after its permit is modified, which is estimated to
                occur in FY 2005. The plan indicates that WlPP will receive
                about 180 shipments of remote-handled TRU waste from the
                Hanford Site by 2012. However, Hanford's primary planning
                document, its performance management plan, does not support
                shipment at this volume. Rather, Hanford's planning documents
                indicate that the site will not be prepared to ship large amounts of
                remote-handled TRU waste until after 2012.

               The Office of Environmental Management stated that the
               Hanford Site will be able to ship waste generated from other
               sites, totaling about 20 shipments, soon after the permit is
               modified in 2005. In addition, management is considering
               options that would allow for an acceleration of shipments fiom
               the Hanford Site. When asked, however, management did not
               specify how the difference in shipments would be reconciled.

Page 2                                                          Details of Finding
                The Idaho National Engineering and Environmental Laboratory
                (INEEL) plans to begin shipping remote-handled TRU waste to
                WIPP in Fiscal Year (FY) 2005, but it currently has no facilities
                capable of treating remote-handled TRU waste and preparing it
                for shipment. As we noted in our report on INEEL's Remote
                Treatment FuciZity (DOEIIG-0573, November 2002), the Office
                of Nuclear Energy is planning to construct a $68 million facility
                to process its remote-handled TRU waste beginning in 2009 at
                its Argonne National Laboratory-West, located on the INEEL
                site. However, start-up of this facility will occur four years too
                late to support the INEEL's acceleration plans, and the facility as
                currently conceived may not have the capacity to support the
                waste treatment needs of both Nuclear Energy and
                Environmental Management.

                The Oak Ridge Reservation scheduled its remote-handled TRU
                waste treatment facility to be operational in January 2003;
                however, WIPP is not likely to be permitted to receive remote-
                handled TRU waste before January 2005. To its credit, the Oak
                Ridge Reservation began negotiating with its contractor to
                change the waste treatment operating plan to treat contact-
                handled TRU and other wastes first, in an attempt to avoid
                having an idle facility. However, if WIPP is not able to begin
                receiving remote-handled TRU waste by FY 2005, the plant
                may become idle.

                The Savannah River Site, one of Environmental Management's
                smallest remote-handled TRU generator sites, is planning to
                send its remote-handled TRU waste to the Oak Ridge
                Reservation in 2025 to be treated for final disposal at WIPP.
                However, Oak Ridge officials stated that they were unaware of
                the Savannah River Site's plans. In fact, Oak Ridge planned to
                complete its waste treatment and decontaminate and
                decommission its treatment facility as early as FY 2010.

         In responding to the draft report, the Office of Environmental
         Management stated that a robust integration process was used to
         develop the remote-handled Transuranic Waste Performance
         Management Plan, and specific implementation details continue to be
         developed at the sites. Also, management intends to develop a more
         detailed disposal schedule following approval by New Mexico of
         permits currently under review. Such a schedule would, presumably,
         resolve some or all of the issues noted above.


Page 3                                                        Details of Finding
                                  Shipping Containers

         Opportunities exist for the Department to optimize, from a cost
         standpoint, use of two different shipping containers to transport
         remote-handled TRU waste to WIPP. The Department selected the
         72B container (a 3 -drum container) as its primary shipping
         container. The Department also obtained a second container, the
         10-160B container (10 -drum), though it planned to use the larger
         container in only very limited circumstances. We noted, however,
         that in many instances, the 10-160B could be more cost-effective. In
         fact, a 1996 Department study ranked the predecessor to the current
         10-drum container as more desirable than the 3-drum container
         because it would improve shipping efficiencies and reduce the
         number of remote-handled TRU waste shipments.

         It should be noted that the 10-drum container could not be used for
         shipping remote-handled TRU waste with plutonium levels above
         20 curies, due to its single-shielded design. Also, the Oak Ridge
         Reservation should continue using the 3-drum container because its
         waste processing facility was designed to load that type of container
         directly. Nevertheless, the 10-drum container could be used to ship
         remote-handled TRU waste from seven generator sites to WIPP.

         Based on site estimates of potential shipments using 10-drum
         containers, we calculated that the Department could reduce the
         number of shipments to WIPP from approximately 2,250 to 1,510, or
         33 percent. Appendix 4 of this report provides a comparison of the
         difference in the number of shipments, using different casks.
         Although Carlsbad Field Office officials were concerned that the
         10-drum container increases the burden on WIPP operations, our
         analysis showed that the larger container would not require more
         processing time than the 3-drum container.

         Department officials stated that a reason for focusing primarily on
         one shipping container was to avoid the administrative burden of
         keeping technical and safety documentation on more than one
         container. We found, however, that the Carlsbad Field Office has in
         place all the technical and safety documentation for both container
         types. Thus, if the Department were to use the 10-drum container,
         any additional administrative burden may be minimal.




Page 4                                                     Details of Finding
                     In response to the draft, the Office of Environmental Management
                     stated that the report misrepresents the Department's strategy for
                     shipment of remote-handled TRU waste because it creates a
                     misconception that the alternative 10-160B shipping container is not
                     being appropriately utilized. Environmental Management noted that
                     it owns a 10-160B shipping container, has used it, and has
                     encountered difficulties in using the cask due to its size, weight, and
                     the 20-curie limit on transuranic radionuclides -- factors not
                     considered in the report's conclusion.

                     To the contrary, cost comparison does take into account the
                     difficulties in using the 10-160B. Specifically, the cost comparison
                     for the casks factored in overweight issues and radiological limits.
                     To address weight issues, the cost of overweight fees was deducted
                     from our savings calculation. To reflect the 20-curie limit, our cost
                     comparison included only those sites that have a high potential to
                     utilize the 10-160B cask given the Department's estimate of
                     transuranic radionuclides. We recognize that the 10-160B container
                     is not the most cost-effective alternative for all waste shipments;
                     however, it is suitable for more shipments than planned.

Program Management   Our audit disclosed additional opportunities for the Department to
                     more fully integrate and coordinate the treatment, storage,
                     transportation, and disposal of remote-handled TRU waste. Existing
                     performance goals and measures for managing the program could
                     also be enhanced.

                                         Integration and Coordination

                     The Office of Environmental Management is responsible for
                     promoting integration and coordination of transuranic waste
                     treatment, storage, transportation, and disposal activities across the
                     complex to facilitate development of an effective and efficient
                     system. To date, Environmental Management has relied primarily on
                     the Carlsbad Field Office and the National Transuranic Waste
                     Corporate Board (made up of representatives from Carlsbad, WIPP,
                     Headquarters, and generator sites) to carry out these responsibilities.
                     Board representation is limited to those sites currently shipping
                     waste to WIPP. Since only contact-handled waste is being shipped,
                     the sites that are major generators of RH-TRU waste are not
                     integrally involved in the decision-makingprocess.




Page 5                                                                  Details of Finding
         Management stated that the major remote-handled TRU waste
         generator sites are represented at TRU waste corporate meetings and
         contribute to the deliberations. However, we noted that major
         generators of remote-handled TRU waste, such as the Oak Ridge
         Reservation, are not members of the Board and, as a result, do not
         formally participate in the decision-making process.

                           Performance Goals and Measures

         In our judgment, strategic performance goals and measures for the
         remote-handled TRU waste disposal program could also be
         enhanced. We noted that the Department developed a corporate-
         level performance measure covering the shipment of TRU waste and
         ensured that performance measurements were incorporated into the
         management and operating contract with Westinghouse at WIPP.
         However, there is currently no performance measure specific to the
         shipment or disposal of remote-handled TRU waste. In contrast, the
         Office of Environmental Management established a number of
         strategic performance goals for contact-handled TRU waste.
         Establishing similar strategic performance goals for the remote-
         handled TRU program would allow the Department to better focus
         its efforts and improve accountability.

         In response to the draft report, management stated that the report did
         not reflect the integration process used by the Department to prepare
         performance management plans, nor did it reflect the Department's
         intense efforts to coordinate between sites. The Department has
         implemented new project controls to strengthen TRU waste
         management, including baseline waste shipment configuration
         control, formal biweekly approval of all waste shipments,
         performance-based contract incentives at waste shipping sites and
         WIPP, regular briefings for the Under Secretary on waste shipping
         interfaces, and new corporate performance metrics on waste
         disposal. Management concluded that these project management
         initiatives negate the need for additional actions.

         We consider the improvements recently implemented by the Office
         of Environmental Management to be positive steps. However, the
         improvements did not identify or resolve inconsistencies between the
         Department's program management plan and the sites' plans. Thus,
         we concluded that Environmental Management should pursue
         additional integration efforts across the complex to fully coordinate
         the treatment, storage, transportation, and disposal of remote-handled
         TRU waste.

Page 6                                                     Details of Finding
Cost and Cleanup   Aggressive management of the challenges noted in this report could
Milestones         preclude the need to reconfigure the repository, increase the
                   likelihood that accelerated cleanup goals will be reached, and avoid
                   approximately $7.9 million in unnecessary costs (see Appendix 5).

                   If the current waste emplacement trend continues, by 2020 the
                   Department will be forced to reconfigure the WIPP facility to
                   provide additional remote-handled TRU storage capacity. Without
                   knowing the extent of additional space required, we could not
                   determine how much the reconfiguration might cost. While the
                   volume of waste permitted under the WlPP Land Withdrawal Act of
                   1992 would not be changed, the Department would be required to
                   modify the original design and permit of the facility, as well as
                   perform additional mining to accommodate the remaining inventory.

                   Further, the Department's accelerated cleanup goals may not be
                   achieved if waste treatment, storage, transportation, and disposal
                   activities are not integrated and coordinated across the complex.
                   Without sufficient coordination for treatment and disposal of remote-
                   handled TRU waste, the Department will not have the necessary
                   assets in place, such as treatment facilities, to sustain an accelerated
                   schedule.

                   In addition, we estimated that the Department could avoid about $7.9
                   million in unnecessary shipping costs by using the 10-drum shipping
                   containers rather than 3-drum shipping containers, where practical.
                   We estimated potential savings using a cask loading efficiency of 75
                   percent (see Appendix 4,note 3) and a transportation rate of $3.61
                   per mile (see Appendix 5, note 2). The Office of Environmental
                   Management did not agree with our estimate of potential cost
                   savings and questioned the assumptions used in the estimate.
                   Management believed that a transportation rate of $3.19 per mile and
                   a cask loading efficiency of 50 percent was more accurate. Using
                   management's assumptions, estimated savings would be, at most,
                   about $1.9 million. Explanations of the differences between our
                   assumptions and management's are included in the notes to
                   Appendices 4 and 5.




Page 7                                                                Details of Finding
RECOMMENDATIONS    We recommend that the Associate Deputy Assistant Secretary for
                   Integration and Disposition, Office of Environmental Management:

                           1. Maximize opportunities to hlly integrate and coordinate
                              the treatment, storage, transportation, and disposal of
                              remote-handled TRU waste across the complex by:

                              a) Developing a contingency plan for dealing with the
                                 potential shortfall in the number of disposal positions
                                 for disposing of remote-handled TRU;

                              b) Ensuring that local program management plans are
                                 consistent with the overall Department's program
                                 management plan for remote-handled TRU waste;
                                 and,

                              c) Conducting an analysis to determine the optimal mix
                                 of shipping container types for cost-effective, safe,
                                 and environmentally acceptable shipment of remote-
                                 handled TRU waste to WIPP.

                          2. Ensure that the National Transuranic Waste Corporate
                             Board has adequate representation for remote-handled
                             TRU waste generator sites.

                          3. In coordination with regulators, establish and implement
                             strategic performance goals and measures for
                             accomplishing the remote-handled TRU waste disposal
                             program.

MANAGEMENT         The Assistant Secretary for Environmental Management did not
REACTION           concur with the finding and recommendations, stating that the draft
                   report misrepresented the facts and drew faulty conclusions
                   concerning the Department's management of remote-handled TRU
                   waste. The Assistant Secretary agrees that opportunities exist for
                   improvement; however, she believes that the established
                   management systems are sufficient to address issues as they arise.


AUDITOR COMMENTS   While we consider the improvements recently implemented by
                   management to be positive steps, the audit demonstrates that
                   additional actions are needed to hlly integrate and coordinate the
                   treatment, storage, transportation, and disposal of remote-handled
                   TRU waste.

Page 8                                            Recommendations and Comments
         Management's comments on the validity of the finding, along with our
         responses, have been incorporated into the text of this report and are
         included in their entirety as Appendix 3.




Page 9                                    Recommendations and Comments
Appendix 1

                                          PFUOR AUDIT REPORTS



          0   Remote Treatment Facility (DOE/IG-0573, November 2002), concluded that the
              Department had not integrated all Idaho National Engineering and Environmental
              Laboratory mission needs in the planning process for the Remote Treatment Facility.
              As a result, the facility would not be able to meet operation needs nor simultaneously
              process all remote handled solid waste in accordance with established deadlines.

          0   Planned Waste Shipments to the Waste Isolation Pilot Plant (WR-B-99-06, August
              1999), concluded that the Carlsbad National Transuranic Waste Management Plan was
              not current or consistent with the data at the generator sites and could not be used to
              measure target dates for shipping waste to the Waste Isolation Pilot Plant.




Page 10                                                                                Prior Audit Reports-
Appendix 2

OBJECTIVE     Determine whether the Department had established an efficient system
              for disposing of remote-handled transuranic (TRU) waste at the Waste
              Isolation Pilot Plant (WIPP).

              The audit was performed from April 8,2002, to November 14,2002, at
SCOPE         WIPP in Carlsbad, New Mexico. Visits were also made to the Oak
              Ridge Operations Office in Oak Ridge, Tennessee, and Battelle
              Columbus in Columbus, Ohio. The audit scope was limited to the
              planning conducted by WIPP and the waste generators from 1995
              through 2002 for treating, shipping, and disposing of remote-handled
              TRU waste at the WIPP.

METHODOLOGY   To accomplish the audit objective, we:

                  0   Obtained and reviewed planning documents for the activities
                      under audit;

                      Researched Federal and Departmental regulations;

                  0   Reviewed findings from prior audit reports regarding the
                      disposal of TRU waste at the WIPP;

                  0   Reviewed the Office of Environmental Management's Top-to-
                      Bottom Review Team Report, A Review of the Environmental
                      Management Program (February 2002);

                  0   Assessed internal controls and performance measures
                      established under the Government Performance and Results Act
                      of 1993;

                  0   Surveyed remote-handled TRU waste generators at the various
                      Departmental sites; and,

                      Evaluated performance and cost data for applicable processes.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to the Department's planning process for
              waste management activities. Because our review was limited, it would
              not necessarily have disclosed a11 internal control deficiencies that may



Page 11                                        Objective, Scope, and Methodology
-




    Appendix 2 (continued)

                         have existed at the time of our audit. We relied on automated data
                         processing equipment to accomplish our audit objective. Specifically,
                         we relied on the contractor's cost accounting system, and conducted
                         tests to ensure reliability of the data. We held an exit conference with
                         the Director, Waste Isolation Pilot Plant Office, Office of Integration
                         and Disposition on February 27,2003.




    Page 12                                               Objective, Scope, and Methodology
        Appendix 3

EFG {007-901

United S t a t e s Government                                                                Department of Eneray

memorandum
        DATE:    April 2 9 , 2003
   REPLY TO
   A T M OF:     EM-23 (Doug Tonkay, 301-903-7212)
   SUBJECT:
                 Response to Proposcd Final Audit Report on “Disposal of Rcmote-Handled Transuranic Waste
                 at the Waste Isolation Pilot Plant”
           TO:
                 Gregory H. Friedman, Inspector General

                 1 appreciate the opportunity to have met with you on the subject report and I also appreciate
                 your staff’s time in working with my office in this regard. However, T must respectfully
                 disagree with the results and recornmcndations in the subject proposed final report dated
                 April 7, 2003. A s noted, ongoing discussions havc occurred between the Office of Inspector
                 General (1G) staff and m y staff since the previous draft report was issued on February 26,
                 2003. Although some positive changes have resulted in the proposed final report, the report
                 continues to misrepresent the facts and draw faulty conclusions concerning the Department’s
                 management of remote-handled transuranic (RH-TRIJ) waste activities.

                 Although the report states that the IC does not take issue with our assessment that Waste
                 Isolation Pilot Plant (WIPP) can be configured to dispose of all RH-TRU up to the legal limit
                 of 7,080 cubic metcrs at the WTPP, it stiJI concludes that a new formal planning process is
                 prudent. I disagree with the need for any new formal planning process. The Department
                 closely monitors WIPP disposal operations and, through the existing planning and regulatory
                 process, can accommodate changing waste forecasts and schcdulcs, as needed. Options
                 available include use of underground disposal panels 9 and I0 or double canister emplacement
                 in boreholes. There is no near-term impact on WIPP operations, and there is sufficient time to
                 implement any option if the forecast warrants under current managemcnt practices.

                 During the audit process, the X G staff found that consistency could be improved between the
                 Transuranic Waste Performance Management Plan prepared by Carlsbad Field Office (CBFO)
                 and Performance Management Plans prepared by waste generator sites, e.g. Hanford. The
                 audit report does not reflect the integration process used by the Department to prepare the
                 Performance Management Plans and the intense effort to coordinate among all the sites and
                 CBFO and that this coordination is continous and ongoing. The Environmental Management
                 program has put in place new project controls to strengthen management of TRU waste and
                 other accelerated cleanup activities, including: baseline configuration control of TRU waste
                 shipments, formal bi-weekly approval of all waste shipments, performance-based contract
                 incentives at waste shipping sites and W P P , regular briefings for the Under Secretary on all
                 aspects of WIPP and TRU waste shipping interfaccs, and implementation of new corporate
                 performance metrics, one of which is TRU waste disposed. These project management
                 initiatives, which arc acknowledged in the proposed final report, negate the need for additional
                 actions. Our management focus is to identify issues, prioritize, establish options, and resolve




       Page 13                                                                             Management Comments
Appendix 3 (continued)


                                                                                                       2

    as needed. This management approach is being applied to the WLE’P and must sustain
    throughout the life of this program.

    The audit report misrepresents the Department’s strategy for shipment of RH-TRU waste
    because it creates a misconception that the alternative CNS 10-160B shipping container is not
    being appropriately utilized. The Department owns a CNS 10-l60B container and has used it
    for recent intersite RH-TRU waste shipments. Because of this expericnce, the Department
    understands the difficulties in using this cask due to its size, weight, and the 20 curie limit on
    transuranic ndionuclides. The CNS 10-160B container, f u l I or empty, requires special permits
    from states and is restricted from some highways. The Department has received negative
    feedback fiom truck drivers, state officials, and site workers about these difficulties.
    Documents and photographs were sharcd with the IG staff to support these claims, but these
    difficulties are not factored into the cost analysis and conclusions.

    The cost analysis in the report is flawed. The analysis assumes unrealistic volumes of waste
    that can be shipped using the CNS 10-160B container. Initially, the 1G analysis assumed that
    the CNS 10- 1GOB container could be filly loaded with RH-TRU waste drums. When
    confkonted with the Department’s data that the number of drums in currcnt shipments average
    about 50 percent efficiency due to radionuclide limits, the IG analysis cask loading assumption
    was changed to an arbitrary value of 75 percent efficiency. The IG staff are unwilling to
    accept the facts, i.e., 5 0 percent efficiency is our actual experience. The IG analysis also uses a
    cost of $3.61 per shipment mile, which is not representative of shipping costs during
    operations at the level of current and planned operations at WIPP. The Department’s analysis
    indicates that incremental costs will be $1.85 per shipment mile, and the average costs for all
    contact-handled and RH-TRU shipments will be $3.19 per mile based on the level of all
    planned TRU shipments. Although the report now includes the Department’s efficiency and
    cost assumptions, I disagree with statements in the report that the Department’s costs are
    unreasonable. Because the IG analysis continues to contain erroneous cfficiency and cost
    assumptions, the cost savings claims are not credible.

    The draft report alleges that the Department is not managing and integrating the RH-TRU
    waste program. This is simply false. There is a well documented record of interactions
    between generators and the Carlsbad Field Office to build the regulatory strategy and planning
    basis for RH-TRU waste at all levels. The major RH-TRU waste generator sites are
    represented at TRU waste corporate meetings and contribute to the deliberations. Evidence of
    this exists in the National TRU Waste Management Plan and Transuranic Waste Performance
    Management Plan, which h l l y describe the RH-TRU program and issues that are being
    worked. The Department is actively managing and fully integrating the RH-TRU program
    with other WIPP activities. The report also fails to acknowledge contributions of the new
    project management initiatives, described above, that are strengthening the management and
    coordination of all our accelerated clcanup efforts, including TKU waste disposal.




Page 14                                                                         Management Comments
                                                                                                 3
     In addition, 1 disagrcc with the notion of establishing and implementing a new strategic
     performance measure related to RH-'I'KIJ waste. The EM program corporate performance
     measure placed on generator sites is the amount of TRU waste disposed at WTPP. This already
     applies to RH-TRU waste, when such shipments begin. Regulatory actions needed to begin
     disposal at WIPP arc not well served by a performance measure.

     I do concede that opportunities for management improvements exist, this is always the case.
     However as those are addressed, new opportunities will surface and we have established
     management systems that are robust enough to sustain them. Based on the above points, no
     additional actions are necded to address the recommendations in this LG audit report. Efforts
     are in place to appropriately manage changes in waste volume forecasts and schedules.
     Intensive planning efforts continue to implement Performance Management Plans to resolve
     any remaining inconsistencies and deal with changes. New project controls are in place
     already to ensure that TRU waste management activities are integrated. The RH-TRU waste
     generating sites already have adequate representation at corporate board meetings, and
     performance goals and measures are adequate to manage RH-TRU activities. Lastly. there is a
     policy in place for RH-TRU shipping that allows use of the alternative shipping container for
     instances where it makes good technical scnsc. No additional studies or actions are warranted
     at this time.

     If'you have any further questions, please call me on (202) 586-7709 or Patrice M. Bubar,
     Associate Deputy Assistant Secretary, Office of Integration and Disposition on
     (202)586-5 I 5 I .




                                     (/   Assistant Secretary for
                                           Environmental Management


     cc: Merley Lewis, ME-1.1
         Ines T h y , CBFO
         Frederick D. Doggett, IG-30




Page 15                                                                     Management Comments
Appendix 4

          DIFFERENCE IN NUMBER OF SHIPMENTS USING 72B AND 10-160B CASKS
                                                                            ~~          ~
~~        ~




                                                           Shipments              Shipments
                                       Volume in           Using 72B             Using 10-160B      Difference in
                                      Cubic Meters         Container               Container         Number of
              Location                  (Note 1)            (Note 2)                (Note 3)         Shipments


Richland, WA (Note 4)                      1,077.5             1,212                 692                 520
Oak Ridge, TN                               452.7               509                  509                   0
Idaho Falls, ID                              304.0              342                  195                 147
Los Alamos/Sandia, NM                        121.5               137                  86                  51
Pleasanton, CA                                11.8                14                   8                   6
Argonne, IL.                                  10.0                12                   7                   5
Niskayuna, NY                                  9.9                12                   7                   5
West Mifflin, PA                               2.0                 3                   2                   1
Argonne-West, ID                               6.1                 7                   7                   0



Notes:

1. Volumes for each site were obtained from the Remote Handled TRU Waste Inventory Report, dated June 2002.
   In calculating the difference in shipments, we excluded Oak Ridge, TN - a major remote-handled TRU site with
   452.7 cubic meters of waste - since its waste treatment facility is designed for loading 72B casks. We also
   excluded remote-handled TRU from Argonne-West, ID, and some remote-handled TRU from Los Alamos, NM,
   since, for various reasons, some of this waste was not suitable to be shipped in the 10-160B.

2. For conservatism, we assumed that the 72B would be loaded at 100 percent efficiency. Specifically,rather than
   placing three 55-gallon drums in the 72B cask (.62 cubic meters) we assumed the 72B would be "direct loaded,"
   which enables it to carry a volume of .89 cubic meters per shipment.

3. We assumed that the 10-160B would be loaded at 75 percent efficiency, with 1.56 cubic meters of waste. In
   response to a draft of this report, the Office of Environmental Management disagreed with our assumption and
   suggested that the 160B cask could achieve a loading efficiency of only 50 percent based on 3 casks previously
   loaded at the Columbus, OH, site. We recognize that the first three 10-160B casks were loaded at about 50
   percent efficiency. However, our review of internal planning documents and related correspondence suggests that
   Environmental Management plans to achieve an efficiency rate of about 75 percent for 3 1.2 cubic meters of
   remote-handled TRU waste to be shipped from Columbus, OH, in about 20 future shipments. Further, we
   compared the relative TRU curie activity between various remote-handled TRU generator sites and found that
   Columbus, OH, has a smaller inventory and significantly higher curie activity with an average of 8.65 per cubic
   meter. Two large generators, Hanford and the INEEL, had average curie activities of 0.85 and 0.57 per cubic
   meter, respectively, which is one-tenth and one-fifteenth the curie activity for Columbus. Therefore, we believe
   that the estimate of 75 percent efficiency possible with the Columbus waste could be significantly exceeded with
   the majority of the rest of the waste to be shipped in 10-160B containers.

4. Includes waste shipped from Columbus, OH, and Santa Susana, CA, sent to Richland, WA, for interim storage.


Page 16                                                                                     Difference in Shipments
Appendix 5

                                   CALCULATION OF COST SAVINGS
                                                        ~~~              ~




                                                              Savings Using    Over-weight
                                                                10-Drum           Fees           Total Estimated
                                       Total Mileage           Container      (Round Trip)          Savings
                Site                     (Note 1)               (Note 2)        (Note 3)

Richland, WA (Note 4)                    1,860,560             $6,7I6,62 1     $(52 1,345)         $6,195,276
Idaho Falls, ID                            418,362              1,510,287       (116,587)           1,393,700
Los AlamodSandia, NM                        36,210                130,718         (2,580)             128,138
Pleasanton, CA                              18,048                 65,163         (2,248)              62,905
Argonne, IL                                 17,200                 62,092         (3,475)              58,617
Niskayuna, NY                               22,320                 80,675        (10,07 1)             70,504
West Mifflin, PA                             4,280                 15,451         (2,626)              12,825
   Total                                 2,376.980             $8.580,898      $(658,932)          $7.92 1.966



Notes:

 1. Round trip mileage was obtained from the Carlsbad Field Office.

 2. We estimated potential savings using a transportation rate of $3.61 per mile based on a weighted average for all
    years of the carrier contracts, including costs for "standby hours"-the time routinely spent by carriers waiting
    for trucks to be loaded. The Office of Environmental Management stated that $3.61 is too high, and suggested
    that either $3.19 or $1.85 per mile would be more appropriate. However, the suggested price of $3.19 per mile
    does not include the cost of standby hours nor average in multiple years' worth of varying transportation costs.
    Also, the suggested cost of $1.85 per mile assumes the lowest possible rate achievable. Camer rates decrease as
    minimal numbers of shipments are completed under the contract; thus, carrier rates are highest at the beginning
    of the year and lowest toward year-end. The $1.85 rate represents the lowest possible rate achievable after
    established milestones are met. In addition, this rate does not include the cost of standby hours. Thus, we
    considered these rates to be unreasonable because they do not include life-cycle considerations.

 3. Over-weight fees were obtained from the Institute for Regulatory Science, and were verified with various states'
    Departments of Transportation.

 4. Includes waste shipped from Columbus, OH, and Santa Susana, CA, sent to Richland, WA, for interim storage.




Page 17                                                                                             Cost Savings
                                                                              IG Report No.: DOE/IG-0613

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
    report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                    Office of Inspector General (IG-1)
                                          Department of Energy
                                         Washington, DC 20585

                                       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
